Court of Appeals, State of Michigan
ORDER
Jonathan Tukel
Presiding Judge

Brenda White v Southeast Michigan Surgical Hospital
Docket No.

354313

LC No,

2012-002017-NH

presented.

Mark J. Cavanagh
Elizabeth L. Gieicher
Judges

The delayed application for leave to appeal is DENIED for lack of merit

in the grounds

own motion, the Court ASSESSES^a'ncdons Tlatn tiff-appellant BrendamT' 77716(C)' °n its
of a* C* $500.00 .!«, 28
kacc**
filings from plaintiff, or on behalf of plaintiff, in
18 d“tClcd not to
any
non-criminal
matter
until plaintiff
has made the payment required by this order. MCR 7.216(A)(7).

/
’

V

f

5,

7•

Presiding Judge
!

A true copy entered and certified by Jerome W. Zimmer Jr.. Chief Clerk. on

/j

rij

9

OCT 2 8 2029
1 <) «

Date

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF MACOMB
NO.

2012-002017-NH

BRENDA WHITE

Atty: PRO PER 99998

Plaintiff(s)
vs.
SOUTHEAST MICHIGAN SURGICAL
HOSPITAL et al

Atty: THOMAS R. SHIMMEL 41280

Defendant(s)

ORDER OF:

ORDER DENYING MOTION FOR
RELIEF FROM JUDGMENT
June 25, 2020
MTN FOR RELIEF FROM JUDGMENT

This cause having been noticed for
Therefore, IT IS ORDERED

DEFENDANT HAS CAUSED TO BE FILED A MOTION FOR RELIEF FROM JUDGMENT, THE
MOTION IS WITHOUT MERIT AND IS THEREFORE DENIED -SGD/EAS

EDWARD A. SERVITTO
GJRCUrr JUDGE

JUN 2 5 2020
A TRUE COPY
D MILLER, COUNTY CLERj
irt Ctafc

EDWARD A SERVITTO JR, Circuit Judge
V< 0F #40\

f c?A d

\: i
s Of

t*\

STATE OF MICHIGAN
COUNTY OF MACOMB
CIRCUirCQURT

Circuit Court No.
INTERIM DISPOSITION ORDER
2012-002017-NH

Court address
40 North Main, Mount Clemens, Ml 48043

Plaintiff Name:
BRENDA WHITE

v

Defendant Name:
SOUTHEAST MICHIGAN SURGICAL HOSPITAL
et al

Plaintiff Attorney Name/eMail address:

Defendant Attorney Name/eMail address:

PRO PER 99998,

THOMAS R. SHIMMEL 41280
thomas.shimmel@kitch.com
KENNETH M. MATTSON 26472
kennethmattson51@gmaii.com

ITIS HEREBY ORDERED:

□
□
□
□

□
□

STATUS CONFERENCE IS SCHEDULED FOR

@8:00 AM.

CASE EVALUATION IS ADJOURNED TO
SETTLEMENT CONFERENCE IS SCHEDULED FOR ___
ALL PARTIES WITH AUTHORITY ARE TO BE PRESENT.
PRE TRIAL IS SCHEDULED FOR
REQUIREMENTS FOR PRE TRIAL:
- MOTIONS IN LIMINE ARE TO BE HEARD
- EXHIBITS ARE TO BE MARKED
- JURY INSTRUCTIONS ARE TO BE EXCHANGED
- DEPOSITIONS ARE TO BE REDACTED

@8:00 AM.

@8:30 AM.

TRIAL IS SCHEDULED FOR

@9:00 AM.

Other:
AMENDED ORDER: ORDER DATED 6/25/20 IS AMENDED TO REFLECT PLAINTIFF
HAS CAUSED TO BE FILED A MOTION FOR RELIEF FROM JUDGMENT, THE
MOTION IS WITHOUT MERIT AND IS THEREFORE DENIED -SGD/EAS

DATE: 6/30/2020

EDWARD A SERVITTO JR, Circuit Judge

EDWARD A. SERVITTO
CIRCUIT JUDGE

JUN 3 0 2020
TRUE COPY
hLler COUNTY CtJfiK.

FI
I

ESIDOCC 3/16

Clerk

A-ppEA/bxv-C

Order

Michigan Supreme Court
Lansing, Michigan

March 30, 2021

Bridget M. McCormack,
ChiefJustice

162312

Brian K. Zahra
David F. Viviano
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh
Elizabeth M. Welch,

BRENDA WHITE,
Plaintiff-Appellant,

Justices

v

aasas?
Defendants-Appellees.

SC: 162312
COA: 354313
Macomb CC: 2012-002017-NH

-

On order of the Court, the application for leave to appeal die October 2% 2020 order
of the Court of Appeals is considered, and it is DENIED, because we are not persuaded
that the question presented should be reviewed by this Court.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court
March 30,2021
b0322

Clerk

BRENDA WHITE-PETITIONER- PRO-SE

VS
SOUTHEAST MICHIGAN SURGICAL HOSPITAL
AND DR.GARY DOCKS - RESPONDENT ( S)

EXHIBITS

Exhibit A- a copy of a three page Warren Police Department Case Report regarding case
Brenda White v Southeast Michigan Surgical Hospital and Dr. Gary Docks; Brenda R. White v
EDS Care Management LLC and Travelers Indemnity Company, report # 14- 20691, FOIA #
1515-20.pdf

Exhibit B- a copy of an email reply letter sent to Brenda and Joseph White from Michelle M.
Brya, Division Chief from Licensing and Regulation Division, dated October 29, 2020, regarding
a citizen inquiry Brenda and Joseph white sent to Attorney General Dana Nessel. Inquiry #
2020-0294519-A

Exhibit C- a copy of an email reply letter sent to Brenda White from Michigan Governor
Gretchen Whitmer, dated November 3, 2020, regarding case Brenda White v Southeast
Michigan Surgical Hospital and Dr. Gary Docks; Brenda R. White v EDS Care Management LLC
and Travelers Indemnity Company.

Exhibit D- a copy of an email letter from Richard L. Cunningham, Michigan Assistant
Attorney General, sent to Brenda White regarding several civil legal claims and administrative
proceedings, dated March 9, 2021,

iiMiiimniiiiiiniiiiQiiiiiiiin
A WARREN POLICE DEPARTM»

29900 SOUTH CMC CENTER BOULEVAW^^
WARREN Ml 48093
586-574-4700

Case Report
Administrative Details:
CR No

140020691

Subject

L4599 - Information - General

Report Date/Time

Occurrence Datemme

04/15/2014 15:54

07/23/2007 08:00

Location

21230 DEQUINDRE RD
Dispatched Offense

L4599 INFORMATION -

Cat! Source

TELEPHONE
Verified Offense

L4599 Information - General

County

Ctty/Twprvuiage

50 - Macomb

95 - Warren

Division

Patrol

Action Requested:
[ ] Arrest warrant

[ ] Review only

[ ] Search warrant

[ ] Forfeiture

[ ] Juvenile petition

[ ] Other

Page 1 of 3

Created On 11/06/2020 12:56 PM

Offenses:
14599 - Information ■ General [WREAGANJ (00104)]
IBR Code / (BR Group

Offense Rie Class

/
Crime Against

Domestic Violence

Loca ton Type

Offense Completed

09 - Drug Store/Doctors
Office/Hospftal

Not Applicable

Hate/Bias

No

00 - None (No Bias)
Cargo Theft

A-Alcoho): No C-Computer Equipment: No D-Drugs/Nareottcs: No
People:
DOCKS, GARY WOLK (O-OTHER) (X-MISCELLANEOUS) [WREAGANJ (00104)]
PE:

W.Type: Last Name

DOCKS

First Name

Middle Name

GARY

WOLK

Suffix

Mr/Mrs/Ms

■_

WHITE, BRENDA RUTH (O-OTHER) (R-REPORTED BY) [WREAGANJ (00104)]
PE:

W.Type: Last Name

WHITE

First Name

Middle Name

BRENDA

RUTH

Suffix

Mr/Mrs/Ms

.
Narrative:
CR No: 140020691-001

Written By: WREAGANJ (00104)

Date: 04/15/2014 04:15 PM

INFORMATIONAL DESK REPORT

Page 2 of 3

Created On 11/06/202012:56 PM

I spoke with Brenda White who came to the station and gave the following information. In
2007 White had surgery at the Southeast Surgical Hospital by Dr Gary Wocks on her right ankle.
Since that time White has suffered a number of other complaint including nerve damage she
says she did not suffer before the surgery. In 2011 she filed a complaint with the circuit court
regarding negligence on the part of Dr Wocks and Southeast Surgical Hospital. That has since
turned into a complaint with the Attorney General's Office. White was advised to file a report with
WPD as part of the process. She said she could provide copies of any documentation if is
requested.

CR No: 140020691-002

Written By: WRYOUHANNAM (45045)

Date: 09/14/2020 04:14 PM

Brenda White came in to the Warren Police Department front desk lobby on September 14th
2020 at approximately 1600 hours, advising me of the following in regards to this Call For
Service. She would like to make some changes in regards to the original information within this
CFS. White wanted to advise that the original complaint was filed in 2012, not 2011 through
Macomb County Circuit Court. The Doctors names is Dr. Gary Docks, not Dr. Wocks. White has
a same related case, Brenda R. White vs. EDS Care Management LLC and Travelers Indemnity
Company (A workers Compensation case). Attached to this CFS is 35 pages of documents in
relation to the original complaint, provided by Brenda White.

CR No: 140020691-‘003

Page 3 of 3

Written By: WRHARVEYJ (45902)

ATTACHMENT ONLY REPORT. No Narrative

Created On 11/06/2020 12:56 PM

- AG-LR-Citi
-Letters ; ...
Citizen Inquiry # 2020-0294519-A
Oct 29, 2020 at 11:54:37 AM
Brendawhite232@comcast.net, josephwhite585@comcast.net

Brenda and Joseph White
Email addresses: brendawhitf?^?^&
Citizen Inquiry # 2020-0294519-A

iwnite.

comcast.nef

Attorney General Nessel has asked me to reply to your request that the Attorney General
intervene m several cases that you are a party to in various Michigan courts and tribunals I

The primary responsibility of the Attorney General is to act as legal counsel for State of
ichigan departments, agencies, and employees, as well as to issue opinions to members of the
Legislature and department heads concerning legal issues that affect state government These
powers and responsibilities are set by law. Tire law does not permit the Attorney General to
provide legal services to private individuals or intervene on your behalf in specific
cases.
AeGordmgly, you may wish to contact a private attorney for advice regarding legal remedies

ofMmhi^n’,7' Ify°rrd ^ findmg an att0mey ,n Mlchi§an> y°u may contact the State Bar

of Michigan s Lawyer Referral Service at its toll-free number, 1-800-968-tma The service is
available 8:30 a m. to 4:45 p.m. Monday - Friday. For a $25 administrative fee, a referral
assistant wiU match you with an attorney who will provide up to a 25-minute initial consultation
free of charge. You can also find information online at: httnsV/Irs mir.hhar r>ra/
If you have a complaint concerning the conduct of a specific judge, such complaints fall
within
the exclusive jurisdiction of the Michigan Judicial Tenure Commission. Because of this
exc usive jurisdiction, the Attorney General does not have authority to take action against
judges. Evidence ofjudicial wrongdoing should be submitted to the Commission at:
Michigan Judicial Tenure Commission
3034 W. Grand Blvd., Suite 8-450
Detroit, MI 48202
Thank you for taking the time to share your concerns with the Attorney General. I hope this
information is helpful to you and that this matter is ultimately resolved to your satisfaction.
Michelle M. Brya
Division Chief
Licensing and Regulation Division

V

Whitmer, Gr^hen (MIEOG) ' :
' 1

Automatic reply: Brenda White conversation and Message left with
the workers disability Compensation Agency regarding corruption
in the Brenda R. White v EDS Care Management LLC And Travelers
Indemnity Company Case, Recorded Monday November 2
2020.aiff
D3; ? Nov 3, 2020 at 10:26:05 AM
: Comcast
* i^
.

Thank you for contacting my office.
This message is to confirm that I have received your e-mail. My office will work quickly to reply
to your concerns, however please note that some issues take longer than others to resolve.
right away.
Thank you again for taking the time to contact my office.
Sincerely,
Gretchen Whitmer
Governor of Michigan

staff may assist you

STATE OF MICHIGAN
DEPARTMENT OF ATTORNEY GENERAL

Cadiliac Piace
3030 West Grand Boulevard
Detroit, Michigan 48202
DANA NESSEL
ATTORNEY GENERAL

March 9, 2021
Brenda White
Brendawhite232@comcast.net
Dear Ms. White:
This letter is written to stress what I indicated during our recent telpnW.^
wdhvoon011' f,ttorneyGeneral staff members have had numerous conversations
ith you over the past few years and have sent you several letters stating
position; We see no legitimate basis for our involvement in
g our
the matters you identify,
As l indicated during our telephone conversation , we
simply have nothing further to
say.
,
have asked tke Attorney General to represent you and/or intervene
on
your behalf in several civil legal claims and administrative proceedings You have
a^so requested that we initiate criminal proceedings against severaSges
attorneys, adverse parties, public officials and others who refuse to gran you the

Notwithstanding my clear and unambiguous response to your prior inauiries
you continue to bombard me with recordings of your telephone conversations with ’
various courts, administrative agencies, public officials and others. There simply

p“ 4 oTm tw recordinss which ™ld ***

- tL

1 "T* to
it clear. We have closed the files on any and all comnlaints
you have filed and will not be taking any action. We are not now conducting anv
type of investigation on the matters you raised. We consider the matters at an end.
Sincerely,
r/.

r

A

Richard L. Cunningham
Assistant Attorney General
Criminal Trials and Appeals

